      HOTLINE ALLEGATIONS REGARDING ACCOUNTING
     FOR THE DEFENSE INFORMATION SYSTEMS AGENCY
                WORKING CAPITAL FUND


Report No. D-2001-123                      May 21, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DECC                  Defense Enterprise Computing Centers
                       Office of the Inspector General, DoD
Report No. D-2001-123                                                     May 21, 2001
  (Project No. D2000FC-0249)

        Hotline Allegations Regarding Accounting for the Defense
          Information Systems Agency Working Capital Fund

                               Executive Summary

Introduction. We performed this audit in response to a complaint made to the Defense
Hotline. The complainant alleged that the Defense Finance and Accounting Service
(DFAS) improperly accounted for funds in the Defense Information Systems Agency
(DISA) Working Capital Fund. The complainant alleged that more than $400 million
in cross-disbursements (those made by organizations that did not perform accounting
for DISA) could not be matched with liabilities, a substantial amount of expenses may
not have been recorded, and that both DFAS and DISA delayed in resolving these
problems to manipulate the DISA financial statements, making the operating results and
reimbursable rates more favorable. The allegations were related to the Defense
Enterprise Computing Centers business area, which is one of the two business areas
within the DISA Working Capital Fund. The FY 2000 financial statements for the
Defense Enterprise Computing Centers business area reported assets of $205.5 million,
liabilities of $23.8 million, and expenditures of $586.1 million.

Cross-disbursements have created DoD-wide problems in matching disbursements and
collections to proper supporting documentation. Disbursements that cannot be matched
to supporting documentation and accepted by the accounting station are often referred
to as undistributed or problem disbursements. A discussion of the allegations and
conclusions is in Appendix B.

Objectives. The overall audit objective was to determine the validity of the allegations
concerning the failures to record cross-disbursements, the existence of unrecorded
expenses, and the efforts to resolve and disclose undistributed disbursements. We also
reviewed the DFAS Cleveland and DFAS Pensacola management control programs as
they related to our audit objective.

Results. We partially substantiated the allegation that a substantial amount of cross-
disbursements could not be matched to liabilities. Also, we partially substantiated the
allegation that efforts to resolve and disclose undistributed disbursements were slow.
However, we did not substantiate the allegation that supportable expenditures were not
recorded in the accounting records for DISA or that DISA and DFAS were trying to
manipulate the financial statements.

DFAS Cleveland reported $198.1 million of net undistributed disbursements in the
September 2000 DISA Defense Enterprise Computing Centers business area statement
of financial position. Of the $198.1 million, $190.8 million (96 percent) was related to
undistributed disbursements that occurred prior to FY 1997. However, DFAS and
DISA have not been able to agree on how these undistributed disbursements should be
resolved. As a result, the FY 2000 financial statements prepared by DFAS Cleveland
for the DISA Defense Enterprise Computing Centers business area could not be relied
on to be a complete and accurate presentation of financial reporting. The problem, if
not corrected, will hinder DISA efforts to obtain a favorable audit opinion in future
years. For details of the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) include a review of the undistributed disbursements in its DoD-wide
effort to review cash balances for Defense Working Capital Funds, and at the
conclusion of that review require a prior period adjustment for the DISA share of any
remaining undistributed disbursements that cannot be allocated to other organizations
based on the results of the DoD-wide review. We also recommend that DFAS
Columbus locate the supporting documentation for the undistributed disbursements that
should have been received by DFAS Pensacola.

Management Comments. DISA nonconcurred with a recommendation in the draft
report to request the Under Secretary of Defense (Comptroller) for authority to write
off net undistributed disbursements from inactive subheads to Non-Recoverable
Accumulated Operating Results because DISA believed those disbursements had
already been expensed. Therefore, entering the disbursements as an expense again
would cause a double costing of the items in question. DFAS agreed to locate
supporting documentation for undistributed disbursements and DFAS Columbus is in
the process of researching the request to provide the appropriate documentation. See
the Finding section for a discussion of management comments and the Management
Comments section for the complete text of management comments.

Audit Response. Based on additional audit work and a joint initiative by the Under
Secretary of Defense (Comptroller) and DFAS requesting an accounting firm to review
account balances for DoD-wide working capital funds, we revised and redirected the
recommendation to the Under Secretary of Defense (Comptroller). We request that the
Under Secretary of Defense (Comptroller) respond to this report by June 21, 2001.




                                           ii
Table of Contents

Executive Summary                                i


Introduction
     Background                                  1
     Objectives                                  2

Finding
     Resolving Undistributed Disbursements       3

Appendixes
     A. Audit Process
         Scope                                  10
         Methodology                            11
         Management Control Program Review      11
         Prior Coverage                         12
     B. Hotline Allegations and Audit Results   13
     C. Report Distribution                     15

Management Comments
     Defense Finance and Accounting Service     17
     Defense Information Systems Agency         19
Background
    Hotline Allegations. This audit was conducted in response to a complaint made
    to the Defense Hotline. The complainant alleged that the Defense Finance and
    Accounting Service (DFAS) improperly accounted for funds in the Defense
    Information Systems Agency (DISA) Working Capital Fund. Included in the
    complaint were allegations that:

      •   DFAS Cleveland recorded a $200 million cash overdraft as positive
          equity rather than a cash overdraft on the FY 1998 Defense Information
          Systems Agency financial statements. (The complaint stated that the
          problem was corrected at the end of FY 1999.)

      •   More than $400 million of cross-disbursements could not be matched with
          liabilities, indicating that a substantial amount of expenses may not have
          been recorded.

      •   DFAS and DISA have been slow to resolve the problems so financial
          statements could be manipulated to make the operating results and
          reimbursable rates appear more favorable.

      •   DFAS Cleveland took unjustified personnel actions to prevent personnel
          from resolving problems identified.

    See Appendix B for a complete discussion of the allegations. See the finding for
    audit conclusions and recommendations on how to resolve the disbursements
    that cannot be matched to supporting documentation.

    DISA Working Capital Fund. The DISA Defense Working Capital Fund is
    financed on a reimbursable basis designed to provide an effective means of
    financing, budgeting, accounting for, and controlling resources as well as the
    costs of providing products and services used to support both peace and wartime
    operations. The DISA Working Capital Fund is divided into two large business
    areas—Communications Information Services Activity and Defense Enterprise
    Computing Centers (DECC). DISA provides a range of common user products
    and services found in the commercial sector that include telecommunication
    services, information technology products and services, customized
    procurement, automated data processing, and maintenance for the DoD
    community and other approved organizations. The FY 2000 financial
    statements for DISA reported assets of $581 million, liabilities of
    $517.6 million, and expenditures of $2.4 billion. The DISA-DECC business
    area portion of total assets, liabilities, and expenditures was $205.5 million,
    $23.8 million, and $586.1 million, respectively.

    Role of the DFAS Cleveland and DFAS Pensacola. Prior to FY 1996, DFAS
    Columbus, DFAS Indianapolis, and DFAS Denver performed the detail-level
    accounting for DISA-DECC business area. At the end of FY 1996, DFAS
    Denver and DFAS Indianapolis ceased transmitting accounting data for 16 of the
    DISA-DECC business area activities. At the end of FY 1997, DFAS Columbus

                                       1
            ceased transmitting accounting data for approximately 36 DISA-DECC
            organizations. In FY 1995, the subhead 5F331 came into existence and is
            maintained by DFAS Pensacola.

            DFAS Cleveland and DFAS Pensacola provided finance and accounting support
            for the DISA Working Capital Fund. However, various offices in DISA
            recorded commitments, obligations, and accruals for the fund using the
            Industrial Fund Accounting System. DFAS Pensacola maintained that system
            for DISA-DECC and recorded disbursements and other accounting information
            for DISA-DECC. DFAS Cleveland maintained departmental accounting records
            and prepared financial statements using data provided by DFAS Pensacola and
            other sources.

Objectives
            The overall audit objective was to determine the validity of the allegations
            concerning the failure to record cross-disbursements, the existence of
            unrecorded expenses, and efforts to resolve and disclose undistributed
            disbursements. We also reviewed the DFAS Cleveland and DFAS Pensacola
            management control programs as they related to our audit objective.
            Appendix A discusses the audit scope and methodology and our review of the
            management control program.




1
    The subhead is a four-digit suffix to the U.S. Treasury account number (basis symbol). The subhead is
    used to identify a subdivision of funds that restricts the amount or use for a certain purpose or identifies
    subelements with the account for management purposes.

                                                         2
                    Resolving Undistributed Disbursements
                    We partially substantiated the allegation that a substantial amount of
                    cross-disbursements could not be matched to liabilities. Also, we
                    partially substantiated the allegation that efforts to resolve and disclose
                    undistributed disbursements were slow. However, we did not
                    substantiate the allegation that supportable expenditures were not
                    recorded in the accounting records for DISA or that DISA and DFAS
                    were trying to manipulate the financial statements.

                    The DFAS Cleveland reported $198.1 million of net undistributed
                    disbursements in the September 2000 DISA-DECC statement of financial
                    position.2 Of the $198.1 million, $190.8 million (96 percent) was related
                    to undistributed disbursements that occurred prior to FY 1997.
                    However, as of December 2000, DFAS Arlington and DISA had not
                    been able to resolve the $190.8 million in undistributed disbursements
                    because supporting documentation could not be located for those net
                    undistributed disbursements. As a result, the FY 2000 financial
                    statements prepared by the DFAS Cleveland for the DISA-DECC
                    business area could not be relied on to be a complete and accurate
                    presentation of financial reporting. If not corrected, the problem will
                    hinder DISA efforts to obtain a favorable audit opinion in future years.


Background
            Cross-disbursements and Undistributed Disbursements. Cross-disbursement
            transactions are disbursements and collections made by a disbursing office
            assigned to one DFAS site and accounted for by an accountable station assigned
            to another DFAS site, DoD Component, or Federal agency. Undistributed
            disbursements represent the amount of disbursements, as reported by the finance
            network, which have not been accepted by the operating level accounting entity.

            Disbursing agents in the DoD and other Federal agencies disburse funds and
            report disbursements directly to the Department of the Treasury in the month of
            disbursal. Accounting offices responsible for recording the disbursements into
            the general ledger accounts do not receive the cash disbursement information
            until a later date. When the accounting office receives the cash disbursement
            information, the information may not contain the necessary data for the
            accounting offices to properly distribute to the fiscal station responsible for the
            disbursements. Accordingly, the lack of necessary data often creates a situation
            where the Department of the Treasury and the accounting office general ledger



2
    DFAS Cleveland prepared a monthly statement of financial position (M-1307 Report). Information
    supporting that statement was used to prepare the annual financial statements in support of the Chief
    Financial Officers Act.

                                                       3
    accounts for disbursements are not equal, thus creating undistributed
    disbursements. To properly account for the discrepancies, the accounting office
    should perform monthly reconciliation of undistributed disbursements.

    DoD-wide Problem Disbursements. Problem disbursements are disbursements
    that have not been, or cannot be, reconciled with official accounting records.
    Problem disbursements include both undistributed disbursements and unmatched
    disbursements. DoD and DFAS have recognized that problem disbursements
    occur throughout DoD and have extensive efforts underway to improve the
    disbursement process. Since 1992, DFAS has reported the undistributed and
    unmatched cross-disbursing and interfund transactions as a material control
    weakness in its Annual Statement of Assurance and developed a business plan to
    provide a centrally focused management effort to reduce the continued
    occurrence of undistributed disbursements. Also, DoD reported in its FY 1999
    DoD annual financial statements that problem disbursements in DoD had as of
    September 1999 decreased from once totaling $34.3 billion to a total of
    $5.5 billion.


DISA-DECC Undistributed Disbursements
    Recording Cross-Disbursements. During FY 1995 and FY 1996, information
    relating to the disbursements made by other disbursing stations and DFAS for
    DISA-DECC was sent directly to the Department of the Treasury. However,
    details of cash disbursement information was never sent to DFAS Cleveland and
    DFAS Pensacola for processing to DISA accounting records. As a result, a
    discrepancy between the Department of the Treasury and DISA-DECC
    accounting records existed. The problem became evident during FY 1997 and
    FY 1998 when the DISA-DECC statement of financial position showed a build
    up of undistributed disbursements. Based on information received, a significant
    amount of undistributed disbursements for FY 1997 and FY 1998 was based on
    disbursements made in FY 1995 and FY 1996 but never recorded in DISA
    accounting records. Review of accounting records maintained at DFAS
    Cleveland and DFAS Pensacola showed that the undistributed disbursements
    occurred because cross-disbursements of $453.5 million were not posted in the
    DISA accounting records. Of the $453.5 million in cross-disbursements in
    question, $294 million pertained to active subhead 5F33; the remaining
    $159.5 million pertained to DISA inactive subheads 5F30, 5F31, and 5F32.

    Correcting Actions Taken by DFAS and DFAS Pensacola. According to the
    Defense Hotline complaint, DFAS personnel were slow in initially researching
    and obtaining vouchers to support expenditures made by other DFAS locations.
    However, beginning in FY 1999, DFAS Cleveland and DFAS Pensacola
    accounting personnel aggressively researched and obtained vouchers for about
    $251 million in undistributed disbursements related to active subhead 5F33.
    Also, the Industrial Fund Accounting System was able to process an additional
    $11.7 million in undistributed disbursements pertaining to active subhead 5F33.
    The remaining $190.8 million was still unresolved because supporting vouchers
    for the summary net disbursements could not be located. Of the $190.8 million,

                                       4
    $31.3 million pertained to active subhead 5F33. The remaining $159.5 million
    pertained to inactive subheads 5F30, 5F31, and 5F32, which DFAS Columbus,
    DFAS Indianapolis, and DFAS Denver used before the subheads were
    inactivated. As of September 30, 2000, the unresolved undistributed
    disbursements of $190.8 million are shown in the table below.


                      Undistributed Disbursements Reported for
                            Active and Inactive Subheads
                                  (dollars in millions)

     Description                            Active      Inactive         Total

     Undistributed Disbursements            $294.0       $159.5         $453.5

     Researched by DFAS Personnel           (251.0)          0          (251.0)

     Processed by Accounting System         ( 11.7)          0           (11.7)

        Unresolved Amount                   $ 31.3       $159.5         $190.8



    A review of current accounting procedures at DFAS Pensacola showed that
    current undistributed disbursements related to subhead 5F33 were reconciled on
    a monthly basis and only $7.2 million in net undistributed disbursements were
    reported on the DISA-DECC September 2000 statement of financial position.
    Also, in FY 2000, in an effort to resolve the undistributed disbursement issues,
    DFAS Arlington formed a team of personnel from DFAS Arlington, DISA
    headquarters, DFAS Indianapolis, DFAS Cleveland, and DFAS Pensacola to
    meet and review the process and the procedures related to controlling and
    tracking expenditure information. Jointly, the team developed a plan of action
    and milestones that would resolve the undistributed disbursements for DISA.
    When actions in the plan of action and milestones are completed, DISA will
    have accurate, supportable undistributed disbursement and collection
    information. As of September 30, 2000, the net undistributed disbursements
    that related to the FY 1995 and FY 1996 cross-disbursements for active subhead
    5F33 were $31.3 million. The team is scheduled to complete its work by
    September 2001.


Reasons for Delay in Resolving Undistributed Disbursements
    The lack of supporting documentation for the $190.8 million in unsupported
    disbursements was the primary cause of delay in resolving the undistributed
    disbursements. Also, a concern about increasing the reimbursable rate
    contributed to the continued reporting of a significant amount of undistributed
    disbursements in the DISA-DECC financial statements.


                                        5
    Undistributed Disbursements from Three Inactive Subheads. Net
    undistributed disbursements of $159.5 million were related to the three inactive
    subheads—5F30, 5F31, and 5F32. Data from those subheads should have been
    closed out at the end of FY 1995 and transferred to the new subhead, 5F33,
    which is maintained by DFAS Pensacola. To properly close out and transfer the
    residual balances to subhead 5F33, DFAS Arlington and DISA would have to
    resolve the $159.5 million in undistributed disbursements. However, clearing
    the net undistributed disbursements is remote because the vouchers could not be
    located to prove that the disbursements were correctly charged to DISA funds.

    In December 1998, DFAS Cleveland recommended that the questionable
    undistributed net disbursements of $159.5 million be closed to equity at the
    activity level after a prior period adjustment was recorded. We believe that
    expenses for these net undistributed disbursements were probably never
    recorded as expenses for DISA-DECC because an aging of the accounts payable
    in September 2000 showed that only $38.4 million of accounts payable were
    more than 90 days old. DISA did not approve the recommendation because it
    did not want to take a loss to resolve the undistributed disbursements without
    supporting documentation to show that the disbursements were correctly made
    from DISA Working Capital Funds. As of December 2000, DISA and
    DFAS Arlington were not able to agree on how to resolve the $159.5 million in
    net undistributed disbursements from the three inactive subheads.

    Undistributed Disbursements from Active Subhead 5F33. The $31.3 million
    in undistributed cross-disbursements was the residual of the $294 million in
    undistributed disbursement related to DISA active subhead 5F33 from FY 1995
    and FY 1996. DFAS Arlington did not want to take action to resolve the
    undistributed problem because DFAS Arlington was concerned that the effort in
    locating the vouchers for the remaining $31.3 million was not complete.
    According to DFAS Cleveland accounting personnel, most of the questionable
    disbursements related to the $31.3 million were disbursed at DFAS Columbus
    during FY 1995 and FY 1996. However, DFAS Columbus was not able to
    assist in locating the missing vouchers. As of December 2000, DFAS Arlington
    had not resolved the $31.3 million in undistributed disbursements because of a
    lack of supporting documentation.


Review of Account Balances for DoD-Wide Working Capital
  Funds
    Subsequent to issuance of the draft report, the Under Secretary of Defense
    (Comptroller) and DFAS began a joint initiative to review DoD-wide working
    capital fund account balances. On February 5, 2001, DFAS awarded a contract
    to an accounting firm to reconcile, validate, and document the significant
    accounting transactions that occurred within and or between working capital
    fund entities within DoD and other DoD appropriations. The DoD-wide effort
    is intended to resolve the longstanding problems with the accuracy of the Fund
    Balance With Treasury for Defense working capital funds. Personnel in the
    DoD Revolving Funds Directorate in the Office of the Under Secretary of

                                       6
    Defense (Comptroller) stated that undistributed problems related to DISA will
    be incorporated in the ongoing DoD-wide effort. At the completion of the
    review, any errors and account imbalances will be identified and the correcting
    entries will be apportioned and recorded. In addition, DISA and DFAS are in
    the process reviewing the transaction data, which is resident in the legacy
    system to identify and clear the aged undistributed problems.


Conclusion
    DFAS Arlington, DFAS Cleveland, and DFAS Pensacola have taken actions to
    reduce the undistributed disbursements for DISA-DECC for prior years.
    However, as of December 2000, about $190.8 million of the $453.5 million in
    undistributed disbursements still remained. We support the current joint
    initiative of the Under Secretary of Defense (Comptroller) and DFAS to review
    Defense Working Capital Fund account balances, but do not believe the
    supporting documentation for the net undistributed disbursements of
    $159.5 million for the three inactive subheads can be located. DISA and DFAS
    must resolve the $159.5 million in undistributed disbursements with direction
    and assistance of the Under Secretary of Defense (Comptroller). We would also
    support efforts by the Under Secretary of Defense (Comptroller) to allocate
    undistributed disbursements for prior years among Defense Working Capital
    Fund entities in a equitable manner after exhaustive research has failed to obtain
    supporting documentation to match the disbursements to specific transactions.
    The remaining $31.3 million from net undistributed disbursements in the active
    subhead (5F33) maintained by DFAS Pensacola pertaining to disbursements
    made by DFAS Columbus have not been located, and actions to obtain those
    vouchers have not been successful. The DISA financial statements will continue
    to be unreliable until the net undistributed disbursements is resolved.


Management Comments on the Finding
    DISA Comments. DISA took issue with the statement that the FY 2000 DISA
    financial statements “could not be relied on to be a complete and accurate
    presentation of financial reporting.” DISA stated that the information
    supporting the FY 2000 activity is accurate and reliable. Only when the
    residual data from the legacy accounting applications are added do the accounts
    payable reflect an abnormal account balance. See the Management Comments
    section for the complete text of the DISA comments.

    Audit Response. We did not review accounting activity for FY 2000
    transactions and do not comment on the accuracy and reliability of FY 2000
    transactions. However, the balance sheet reflects cumulative information, and
    the undistributed disbursements remaining on DISA accounting records from
    prior years affected the FY 2000 financial statements. Closing the undistributed
    disbursements to accounts payable for DISA-DECC created an abnormal
    balance in accounts payable, which indicates that liabilities for the undistributed

                                         7
    disbursements were probably not recorded. When undistributed disbursements
    exceed accounts payable, the financial statements are unreliable because it has
    not been determined whether the disbursements correctly belong to the
    organization. DISA appears to be aware of this concept because in the response
    to Recommendation 1. of the draft report, DISA stated that it recognizes that the
    undistributed disbursements must be resolved before DISA can achieve its goal
    of an unqualified audit opinion.


Recommendations, Management Comments, and Audit
Response
    Revised and Redirected Recommendation. Based on the recent DoD financial
    management initiative and comments on the draft report from DISA and DFAS,
    we revised and redirected Recommendation 1. to the Under Secretary of
    Defense (Comptroller). Recommendation 1., originally made to DISA,
    recommended that DISA obtain a waiver from the Under Secretary of Defense
    (Comptroller) to write off the net undistributed disbursements from the three
    inactive subheads through non-Recoverable Accumulated Operating Results.

    DISA Comments. DISA nonconcurred with the recommendation because it
    believes that its expenses and liabilities were properly recorded. DISA also
    stated that the undistributed disbursement problems occurred because DISA was
    not able to access the legacy applications to take appropriate corrective actions
    that would match the disbursements to the correct account payable. Had this
    access been available, the value of unmatched disbursements would have been
    negligible. DISA is unwilling to enter the unmatched disbursements as an
    expense because it believes that the correct expenses were already recorded.

    Audit Response. Subsequent discussions with DISA, DFAS, and the Under
    Secretary of Defense (Comptroller), along with additional audit work,
    determined that DISA will have to be charged with the net undistributed
    disbursements that cannot be allocated to other organizations or matched against
    existing accounts payable. We support the current joint initiative by the Under
    Secretary of Defense (Comptroller) and DFAS requesting a contractor to
    reconcile, validate, and document various accounting transactions for all DoD
    working capital funds. This initiative will also include a review of undistributed
    disbursements.

    DFAS Comments. DFAS stated that DFAS Arlington formed a team of
    personnel from DFAS Indianapolis, DFAS Cleveland, DFAS Pensacola, and
    DISA. That team developed a plan of action and milestones that would resolve
    the undistributed disbursements for DISA by September 2001.

    Audit Response. The plan of action and milestones mentioned by DFAS may
    have a limited chance to resolve the undistributed disbursements for the active
    subhead 5F33. However, the chance to resolve the undistributed disbursements
    for inactive subheads 5F30, 5F31, and 5F32 is unlikely because, as stated
    earlier, DFAS personnel had concluded that disbursement vouchers for the

                                        8
questionable amounts were not available and DFAS had postponed further
research for those vouchers. Therefore, we have revised Recommendation 1 in
the draft report and redirected it to the Under Secretary of Defense
(Comptroller). At the conclusion of the DoD-wide review of account balances
of working capital funds, to include undistributed disbursements, the Under
Secretary of Defense (Comptroller) will have to allocate any remaining
undistributed (unmatched) disbursements from prior years among the various
Defense working capital funds as prior period adjustments.

1. We recommend that the Under Secretary of Defense (Comptroller):

       a. Include a review of the undistributed disbursements for the
inactive subheads 5F30, 5F31, and 5F32 once used for the Defense
Information Systems Agency Working Capital Fund, and the undistributed
disbursements for the active subhead 5F33 currently used by the Defense
Information Systems Agency Working Capital Fund in the ongoing
DoD-wide effort to review cash balances for working capital funds within
DoD.

      b. Direct the Defense Information Systems Agency and the Defense
Finance and Accounting Service to record a prior period adjustment for any
remaining undistributed disbursements for the Defense Information Systems
Agency Working Capital Fund that cannot be charged against accounts
payable or allocated to other organizations based on the results of the
DoD-wide review.

2. We recommend that the Director, Defense Finance and Accounting
Service, direct Defense Finance and Accounting Service Columbus to assist
Defense Finance and Accounting Service Cleveland and Defense Finance
and Accounting Service Pensacola to locate the missing vouchers relating to
the $31.3 million from subhead 5F33.

DFAS Comments. DFAS concurred and stated that DFAS Columbus is in the
process of researching the request to provide appropriate documentation. DFAS
expects actions to be completed by September 30, 2001.




                                  9
Appendix A. Audit Process

Scope
    We reviewed the procedures and controls used by DFAS Cleveland and
    DFAS Pensacola to prepare financial information for DISA-DECC business
    area. Specifically, we reviewed the undistributed disbursements reported for
    DISA-DECC since 1997. We reviewed DFAS Pensacola reconciliation
    procedures and initiatives made by DFAS Cleveland, DFAS Pensacola, and
    DFAS Arlington to resolve the undistributed disbursements for DISA-DECC
    business area. Also, we reviewed the procedures used by DISA-DECC business
    area to record commitments, obligations, and accruals.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Act, the Secretary of Defense annually establishes
    DoD-wide corporate-level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    objectives and goals, and performance measures.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2.).
           on financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high risk area.




                                       10
Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the undistributed disbursements, the recording of liabilities, and the journal
    vouchers related to the $200 million in cash overdraft, along with the
    $294 million in undistributed disbursements for DISA-active subhead 5F33. We
    judgmentally selected and reviewed $53 million of the $137 million in
    nonpayroll vouchers from disbursements that occurred in FY 1995 and
    FY 1996. We did not review the $114 million in payroll vouchers because
    DFAS Pensacola already processed the payroll data in the Central Expenditure
    Reimbursement Processing System. We reviewed the DFAS Cleveland and
    DFAS Pensacola accounting records, and held discussions with DFAS
    Arlington, DFAS Cleveland, DFAS Pensacola, and DISA accounting personnel
    responsible for compiling, reviewing, and correcting financial information
    reported in the DISA consolidated financial statements.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the Industrial Fund Accounting System and the Central Data Base to
    conduct the audit at DFAS Cleveland and DFAS Pensacola. We relied on
    computer-processed data without performing tests of the system general and
    application controls because the process for reconciling and preparing journal
    vouchers is primarily a manual process. Not evaluating the controls did not
    affect the results of the audit.

    Audit Type, Date, and Standards. We performed this financial-related audit
    from July 2000 through January 2001 in accordance with the auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited and contacted individuals and
    organizations in DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland and DFAS Pensacola management controls
    over preparing and reporting financial information for DISA-DECC.
    Specifically, we reviewed the cash reconciliation process for the Industrial Fund
    Accounting System performed by DFAS Pensacola.

    Adequacy of Management Controls. Although material weaknesses in
    reconciling undistributed disbursements occurred in the past, we did not identify

                                       11
    any material control weaknesses with the DFAS Cleveland and DFAS Pensacola
    procedures in reconciling current undistributed disbursements for DISA-DECC.
    The accounting procedures relating to the cash reconciliation performed at
    DFAS Pensacola would reduce the risk of building up the undistributed
    disbursements.

    Adequacy of Management’s Self-Evaluation. Managers at DFAS Cleveland
    and DFAS Pensacola identified the DISA accounting and DISA cash
    reconciliation process performed by the accounting divisions at both centers as
    assessable units. Also, DFAS Cleveland FY 1999 Annual Statement of
    Assurance reported the control of problem disbursements as one of its material
    control weaknesses.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to the undistributed disbursements. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http//www.dodig.mil/audit/reports.




                                       12
Appendix B. Hotline Allegations and Audit
            Results
   The allegations and audit results as discussed in the audit report are summarized
   below.

   Allegation 1. DFAS Cleveland recorded for FY 1998 a cash overdraft of
   $200 million as positive equity rather than a cash overdraft.

   Audit Results. The complainant stated that the problem was corrected in late
   FY 1999 by DFAS Cleveland. We confirmed that the correction was made.

   Allegation 2. More than $400 million in cross-disbursements could not be
   matched to liabilities, indicating that a substantial amount of expenses may
   not have been recorded.

   Audit Results. The allegation was partially substantiated. However, we could
   not find any evidence that expenses were not recorded. Review of $53 million
   of the $137 million in cross-disbursement vouchers made during FY 1995 and
   FY 1996 showed that expenses were recorded and liabilities were established for
   the disbursements. Also, our review showed that $294 million in undistributed
   disbursements related to DISA active subhead 5F33 occurred because detailed
   disbursement transactions made by other disbursing stations were not sent to
   DFAS Cleveland and DFAS Pensacola for processing. Beginning in FY 1999,
   DFAS Cleveland and DFAS Pensacola aggressively researched and resolved
   $251 million of the $294 million in undistributed disbursements that should have
   been accounted for by DFAS Pensacola. However, supporting documentation
   for the undistributed disbursements relating to the inactive subheads for
   $159.5 million were not located. We believe that expenses for these
   disbursements were probably never accrued in the DISA accounting records
   because an aging of accounts payable in September 2000 showed that only about
   $38.4 million of accounts payable were more than 90 days old. Without
   supporting documentation, no possibility exists to determine if these
   disbursements should be charged to DISA operations. The finding discusses the
   actions DFAS Arlington and DISA should take to resolve the remaining
   undistributed disbursements of $159.5 million related to the inactive subheads
   and $31.3 million related to the active subhead.

   Allegation 3. DISA and DFAS have been slow to resolve the undistributed
   disbursements so that DISA and DFAS Pensacola could manipulate the
   DISA financial statements, thereby making DISA operating results and
   reimbursable rates appear more favorable.

   Audit Results. The allegation was partially substantiated because the
   undistributed disbursements became evident during FY 1997, but DFAS
   Cleveland and DFAS Pensacola did not take aggressive corrective actions until
   FY 1999. However, at the time of our audit, both DFAS Cleveland and DFAS
   Pensacola had aggressively pursued the problem. We could not find any

                                      13
evidence that DFAS Cleveland and DFAS Pensacola were trying to manipulate
the financial statements. As stated in the finding, DFAS Cleveland and DFAS
Arlington had aggressively researched and resolved the undistributed
disbursement problems. However, DFAS Arlington and DFAS Cleveland were
unable to locate vouchers to prove that the disbursements belonged to DISA,
and DISA did not want to record the disbursements against the DISA fund
without supporting documentation that showed the disbursements were
legitimate. Also, DFAS Cleveland was unable to obtain assistance from DFAS
Columbus in locating the missing vouchers for $31.3 million related to the
active subhead.

Allegations 4. DFAS Cleveland took unjustified personnel actions to
prevent accounting personnel assigned to DISA from resolving the
undistributed disbursements of the DISA.
Audit Results. We did not perform audit work on this allegation because the
U.S. Office of Special Counsel found the allegation had no merit and made a
preliminary determination to close the investigation.




                                  14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Cleveland
   Director, Defense Finance and Accounting Service, Pensacola
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                           15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         16
Defense Finance and Accounting Service
Comments




                   17
